                            SOCIAL SECURITY
                                      March 5, 2010




MEMORANDUM FOR THE HONORABLE GREGORY H. FRIEDMAN
                INSPECTOR GENERAL
                DEPARTMENT OF ENERGY

SUBJECT: Department of Energy Peer Review for the Fiscal Year Ending
         September 30, 2009


The attached report presents the results of our external quality control review of the
Department of Energy, Office of Inspector General, Office of Audit Services. Your
response to the draft report is included as Appendix B.

We thank you and your staff for the assistance and cooperation provided during our
review. If you have any questions or would like to discuss the report, please call me, or
have your staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
(410) 965-9700.


                                          S
                                          Patrick P. O’Carroll, Jr.
                                          Inspector General

Attachment




             SOCIAL SECURITY ADMINISTRATION          BALTIMORE, MD 21235-0001
                            SOCIAL SECURITY
                                     March 5, 2010




MEMORANDUM FOR THE HONORABLE GREGORY H. FRIEDMAN
                INSPECTOR GENERAL
                DEPARTMENT OF ENERGY

SUBJECT: Department of Energy, Peer Review for the Fiscal Year Ending
         September 30, 2009


We have reviewed the system of quality control for the Department of Energy, Office of
Inspector General (DoE-OIG) audit organization in effect for the year ended
September 30, 2009. A system of quality control encompasses DoE-OIG’s
organizational structure and the policies adopted and procedures established to provide
it with reasonable assurance of conforming to Government Auditing Standards. The
elements of quality control are described in Government Auditing Standards. DoE-OIG
is responsible for designing a system of quality control and complying with it to provide
DoE-OIG with reasonable assurance of performing and reporting in conformity with
applicable professional standards in all material respects. Our responsibility is to
express an opinion on the design of the system of quality control and DoE-OIG’s
compliance therewith based on our review.

Our review was conducted in accordance with Government Auditing Standards and
guidelines established by the Council of the Inspectors General on Integrity and
Efficiency (CIGIE). During our review, we interviewed DoE-OIG personnel and obtained
an understanding of the nature of DoE-OIG’s audit organization and the design of
DoE-OIG’s system of quality control sufficient to assess the risks implicit in its audit
function. Based on our assessments, we selected engagements and administrative
files to test for conformity with professional standards and compliance with DoE-OIG’s
system of quality control. The engagements selected represented a reasonable cross-
section of DoE-OIG’s audit organization, with emphasis on higher-risk engagements.
Prior to concluding the review, we reassessed the adequacy of the scope of the peer
review procedures, and met with DoE-OIG management to discuss the results of our
review. We believe the procedures we performed provide a reasonable basis for our
opinion.

In performing our review, we obtained an understanding of the system of quality control
for DoE-OIG’s audit organization. In addition, we tested compliance with DoE-OIG’s
quality control policies and procedures to the extent we considered appropriate. These


            SOCIAL SECURITY ADMINISTRATION         BALTIMORE, MD 21235-0001
Page 2—The Honorable Gregory H. Friedman


tests covered the application of DoE-OIG‘s policies and procedures on selected
engagements. Our review was based on selected tests; therefore, it would not
necessarily detect all weaknesses in the system of quality control or all instances of
noncompliance with it.

There are inherent limitations in the effectiveness of any system of quality control, and
therefore, noncompliance with the system of quality control may occur and not be
detected. Projection of any evaluation of a system of quality control to future periods is
subject to the risk that the system of quality control may become inadequate because of
changes in conditions, or because the degree of compliance with the policies or
procedures may deteriorate. For our scope and methodology and a list of reports
reviewed, see Appendix A.

In our opinion, the system of quality control for DoE-OIG’s audit organization in effect for
the year ended September 30, 2009, was suitably designed and complied with to
provide DoE-OIG reasonable assurance of performing and reporting in conformity with
applicable professional standards in all material respects. Federal audit organizations
can receive a rating of pass, pass with deficiencies, or fail. DoE-OIG has received a
peer review rating of pass.

In addition to reviewing its system of quality control to ensure adherence with
Government Auditing Standards, we applied certain limited procedures, in accordance
with guidance established by CIGIE, related to DoE-OIG’s monitoring of engagements
performed by Independent Public Accountants (IPA) under contract where the IPA
served as the principal auditor. It should be noted that monitoring of engagements
performed by IPAs is not an audit, and therefore, is not subject to the requirements of
Government Auditing Standards. The purpose of our limited procedures was to
determine whether DoE-OIG had controls to ensure IPAs performed contracted work in
accordance with professional standards. However, our objective was not to express an
opinion and accordingly, we do not express an opinion, on DoE-OIG’s monitoring of
work performed by IPAs.

During the course of our review, we observed positive audit practices in DoE-OIG. For
example, DoE-OIG integrated the Government Accountability Office’s standards and
DoE requirements into the relevant steps in the TeamMate library files. Further, DoE-
OIG implemented a step within TeamMate to require the auditors contact the Office of
Investigations at the beginning and end of each audit. This step ensures that the audit
work does not interfere with any ongoing investigations. These policies and procedures
provide useful guidance for ensuring effective approaches to audit and attestation
engagements undertaken by the DoE-OIG.


                                          S
                                          Patrick P. O’Carroll, Jr.
                                          Inspector General
                                                                            Appendix A

Scope and Methodology
We tested compliance with the Department of Energy, Office of Inspector General
(DoE-OIG) audit organization’s system of quality control to the extent we considered
appropriate. These tests included a review of 10 of 62 audit and attestation reports
issued during the two semiannual reporting periods during October 1, 2008 through
September 30, 2009. We also reviewed the internal quality control reviews performed
by DoE-OIG.

In addition, we reviewed DoE-OIG’s monitoring of engagements performed by
Independent Public Accountants (IPA) where the IPA served as the principal auditor.
DoE-OIG contracted for the audit of DoE’s Fiscal Year 2008 financial statements.

             Reports Reviewed by the Social Security Administration, OIG
  REPORT          DATE
  NUMBER         ISSUED                              REPORT TITLE
OAS-L-0916      Aug-09    Follow-Up Audit of the Stockpile Surveillance Program

OAS-V-09-04     Nov-08    Report on the Assessment of Changes to The Internal Control Structure
                          and Their Impact on the Allowability of Costs Claimed By and
                          Reimbursed to Los Alamos National Laboratory Under Department of
                          Energy Contract No. W-7405-ENG-36 from October 1, 2005 to
                          May 31, 2006
DOE/IG-0824     Sep-09    Bonneville Power Administration's Acquisition of Transmission-Related
                          Materials and Equipment
OAS-V-09-05     Dec-08    Assessment of Changes to the Internal Control Structure and Their
                          Impact on the Allowability of Costs Claimed by Bechtel Jacobs Company
                          LLC During Fiscal Year 2007
DOE/IG-0817     Jul-09    The Department of Energy's Opportunity for Energy Savings Through the
                          Use of Setbacks in its Facilities
DOE/IG-0823     Sep-09    The Management of the National Nuclear Security Administration's
                          Classified Enterprise Secure Network Project
OAS-V-09-04     Nov-08    Report on the Assessment of Changes to The Internal Control Structure
                          and Their Impact on the Allowability of Costs Claimed by and
                          Reimbursed to B&W Technical Services Y-12, LLC (Formerly BWXT
                          Y-12, LLC) Under Department of Energy Contract No. DE-AC05-
                          00OR22800 During Fiscal Years 2006 and 2007
DOE/IG-0825     Sep-09    The Department of Energy's Management of Contractor Fines, Penalties
                          and Legal Costs
DOE/IG-0814     Apr-09    The Procurement of Safety Class/Safety-Significant Items at the
                          Savannah River Site
OAS-FS-09-01    Nov-08    Report on the Department of Energy's Fiscal Year 2008 Consolidated
                          Financial Statements
Appendix B
